OIG Audit Report GR-30-03-007

Office of Community Oriented Policing Services Grants to the Cecil County, Maryland Sheriff's Office Elkton, Maryland


Report No. GR-30-03-007


September  2003
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the Office of Community Oriented Policing Services (COPS) to the Cecil County, Maryland Sheriff's Office (CCSO).  The purpose of the grant was to enhance community policing.  The COPS Office awarded CCSO a total of $1,004,829 to hire 14 new police officers.
We reviewed the CCSO's activities against six essential grant requirements:  budgeting for officers, hiring of officers, source of local matching funds, reimbursement requests, retention of officer positions, and community policing.  We found that the CCSO adhered to all of the requirements that we tested.
The details of our review is contained in the Audit Results section of the report.  Our audit objectives, scope and methodology appear in Appendix I.